National Aeronautics and Space Administration
OFFICE OF INSPECTOR GENERAL
WASHINGTON, DC 20546-0001




                                            August 13, 2009

TO:           Director, Innovative Partnerships Program
              Director, Office of Program and Institutional Integration

FROM:         Acting Assistant Inspector General for Auditing

SUBJECT: NASA’s Small Business Innovation Research (SBIR) Program
         (Report No. IG-09-023; Assignment No. A-09-015-01)


On August 6, 2009, the Acting Inspector General was a witness at a hearing held by the
U.S. Senate Committee on Commerce, Science, and Transportation on waste, fraud, and
abuse in the SBIR Program. The Acting IG discussed the Office of Inspector General’s
audit and investigative work related to NASA’s SBIR Program. (See the Enclosure for
the statement for the record.)

The Acting IG noted that our work has identified instances of fraud, waste, and abuse by
Program participants that bring into question the effectiveness of the Program’s internal
controls. Specifically, of the 46 SBIR investigations we closed since 2001, eight or
17 percent have resulted in criminal convictions, civil judgments, or administrative
corrective action. Currently, we have five open investigations involving allegations of
potential fraud, waste, or abuse in the SBIR Program.

Our investigative and audit work has shown that some SBIR contractors

•   received awards from multiple agencies for essentially the same work,
•   submitted different proposals to multiple agencies but then provided all of them the
    same deliverable, or
•   misrepresented information including the role of a principal investigator who was
    supposed to perform the research.

We identified many of these violations as early as 1992, and while NASA has taken
corrective action to improve internal controls in the SBIR Program, we continue to
identify the same violations in recent and ongoing investigations.

Questions posed by Committee members during the August 6, 2009, hearing indicate a
continuing high degree of congressional interest in all Federal agencies’ SBIR programs;
specifically, how agencies are addressing fraud committed by program participants. In
responding to such questions, the Acting IG told the Committee Chairman that the OIG
was initiating a comprehensive audit of NASA’s management of the SBIR Program that
                                                                                        2

will focus specifically on assessing the adequacy and implementation of the Program’s
internal controls and the extent of fraud, waste, and abuse by Program participants.

The Acting IG also told the Committee Chairman that we would recommend that NASA
consider whether the SBIR program represents a weakness in internal controls that
warrant monitoring as part of the Agency’s implementation of OMB Circular A-123.
Accordingly, we are recommending that the Director, Innovative Partnerships Program,
take into consideration the OIG’s past audit and investigative work concerning the SBIR
Program when conducting the Statement of Assurance Process for 2009. We also
recommend that the Senior Assessment Team (SAT) discuss NASA’s SBIR Program and
consider whether the Program’s internal controls represent a vulnerability that should be
monitored.

We request a response to this memorandum from the Director, Innovative Partnerships
Program, and from the Director, Office of Program and Institutional Integration. We
request that management provide a single, coordinated Agency response by
September 14, 2009. Management comments should indicate concurrence or
nonconcurrence with each applicable recommendation. Comments should describe
actions taken or planned in response to agreed-upon recommendations and provide the
completion dates of the actions. State specific reasons for any nonconcurrence and
propose alternative actions, if appropriate.

We are available should you have questions. The OIG point of contact (POC) for this
issue is Mr. Ray Tolomeo, Science and Aeronautics Research Director, Office of Audits,
at 202-358-7227 or Raymond.Tolomeo@nasa.gov.



      signed by Mark Jenson for
Debra D. Pettitt

Enclosure

cc:
Assistant Administrator for Internal Controls and Management Systems
Testimony




             Enclosure
            Page 1 of 9
 Enclosure
Page 2 of 9
 Enclosure
Page 3 of 9
 Enclosure
Page 4 of 9
 Enclosure
Page 5 of 9
 Enclosure
Page 6 of 9
 Enclosure
Page 7 of 9
 Enclosure
Page 8 of 9
 Enclosure
Page 9 of 9
